APENDIX C

Case: 20-50250

Document: 00515804420

Page: 1

Date Filed: 04/01/2021

United States Court of Appeals
for the Fifth Circuit

United States Court of Appeals
Fifth Circuit

FILED

April 1, 2021
Lyle W. Cayce
Clerk

No. 20-50250
Caroline Ross,

Plaintiff—Appellant,
versus
Judson Independent School District,
Defendant—Appellee.
Appeal from the United States District Court
for the Western District of Texas
USDC No. 5:18-CV-269
Before Elrod, Willett, and Engelhardt, Circuit Judges.
Don R. Willett, Circuit Judge:
Caroline Ross was employed by Judson Independent School District
as principal of Metzger Middle School. JISD learned that Ross had violated
several district policies, and, after an investigation and hearing, the Board of
Trustees voted not to renew Ross’s term contract. Ross sued JISD, bringing
race, sex, and age discrimination claims under the Texas Commission on
Human Rights Act as well as retaliation and due process claims under 42
U.S.C. § 1983. The district court granted summary judgment in JISD’s

Case: 20-50250

Document: 00515804420

Page: 2

Date Filed: 04/01/2021

No. 20-50250

favor on all claims. Ross now appeals the grant of summary judgment for her
state discrimination and federal due process claims. 1 We affirm.
I
Caroline Ross, an African American woman born in 1961, served as
principal of Metzger Middle School, part of the Judson Independent School
District, from 2010 to 2016. Ross had a term employment contract for the
2015–2016 school year; the contract required Ross to perform her assigned
duties “with reasonable care, skill, and diligence” and to comply with all
JISD policies and state and federal laws. Among other things, those duties
included the proper collection, disbursement, and control of campus activity
funds as well as the proper expenditure of those funds. Ross’s contract also
specifically reserved JISD’s right not to renew the contract.
When JISD conducted an annual review of Metzger’s expenditures
from the 2014–2015 school year, the review raised concerns about several
checks that were not countersigned by two individuals, as required by JISD
policy, and several transactions that did not have all of the required
documentation. Because these transactions were part of Ross’s duties, JISD
placed Ross on paid administrative leave while it conducted further
investigation into possible mishandling of funds at Metzger.
That investigation revealed that Ross had violated JISD’s financial
management policies and the terms of her employment contract: (1) Ross
permitted and authorized her secretary to sign Ross’s name to campus
activity fund checks; (2) Ross charged, or permitted faculty to charge,
students to attend pep rallies, choir concerts, theater productions, and to get

1

Because Ross failed to brief her retaliation claim, she has waived any arguments
as to that claim. See Fed. R. App. P. 28(a)(8); United States v. Reagan, 596 F.3d 251, 254–
55 (5th Cir. 2010).

2

Case: 20-50250

Document: 00515804420

Page: 3

Date Filed: 04/01/2021

No. 20-50250

temporary student IDs; (3) Ross charged, or permitted faculty to charge,
students to purchase composition books that had been paid for by JISD
funds; (4) Ross charged faculty to wear jeans; and (5) Ross deposited the
proceeds from student events and faculty jeans days in a petty cash fund,
which she used to pay for non-JISD authorized expenses.
The investigation also uncovered further violations of JISD policy:
(1) the vice principal observed a bottle of alcohol in Ross’s car while her car
was parked on school property; (2) an assistant principal said that Ross had
appeared to be drunk during a school ceremony for parents and students;
(3) Ross had shared her passwords with her secretary and other JISD
employees and had them perform her duties on JISD software; (4) Ross had
her secretary run personal errands for her during work hours; (5) Ross, who
was a partner in a film production company, worked on a film during school
hours; and (6) Ross permitted and promoted a non-curricular student Bible
study group, which did not comply with the requirements of federal law or
JISD policy.
On May 19, 2016, the JISD Board of Trustees proposed not to renew
Ross’s contract at the end of the 2015–2016 school year. JISD sent Ross a
Notice of Proposed Nonrenewal, which included a list of reasons for
nonrenewal, notified Ross of her right to request a hearing, and provided Ross
with the policies that governed the hearing process and some of the evidence
supporting her nonrenewal. Ross requested an open, public hearing before
the Board. Before the hearing, JISD informed Ross that Ross’s secretary had
resigned and refused to appear at the hearing.
On June 17, the Board held Ross’s nonrenewal hearing. Ross and
JISD called and cross-examined witnesses. Although JISD presented
testimony from Ross’s secretary, which was not in-person testimony, Ross
did not raise a hearsay objection at the hearing. After the hearing, the Board

3

Case: 20-50250

Document: 00515804420

Page: 4

Date Filed: 04/01/2021

No. 20-50250

voted not to renew Ross’s employment contract. On June 27, Ross appealed
to the Texas Commissioner of Education. The Commissioner upheld the
Board’s decision.
Ross then filed suit against JISD in Texas state court, alleging sex,
race, and age discrimination under the Texas Commission on Human Rights
Act (TCHRA). Ross alleged that JISD’s Assistant Superintendent, Elida
Bera, who is a Hispanic woman, wanted to terminate Ross because Ross and
African

American

students

received

preferential

treatment

from

Superintendent Mackey, an African American male. Ross claimed that Bera
planned to replace Ross as principal with either Lisa Guerrero, a Hispanic
woman, or Loretta Davidson, a Caucasian woman, but that Bera was advised
to proceed slowly as long as Ross had an active dispute with JISD. While
Ross was on paid administrative leave, JISD appointed Debbie Grady, an
African American woman who is two years older than Ross, as the interim
principal of Metzger. After the Board decided not to renew Ross’s contract,
JISD appointed Tracey Valree, an African American woman who is six years
younger than Ross, as principal of Metzger. Valree was principal for three
years; Loretta Davidson became principal after Valree.
Ross amended her complaint to add two § 1983 claims, alleging that
JISD retaliated against her for engaging in protected speech and deprived
her of protected constitutional interests without due process. JISD then
removed the case to federal court and moved for summary judgment. 2 The

2

In its motion for summary judgment, JISD also moved, in the alternative, for a
plea to the jurisdiction, solely for the TCHRA claims.

4

Case: 20-50250

Document: 00515804420

Page: 5

Date Filed: 04/01/2021

No. 20-50250

district court granted summary judgment in favor of JISD on all claims. 3
Ross timely appealed.
II
We review summary judgment de novo. 4 Summary judgment is
appropriate “if the movant shows that there is no genuine dispute as to any
material fact and the movant is entitled to judgment as a matter of law.” 5 We
view all facts and draw all reasonable inferences in favor of the nonmovant. 6
III
Ross argues that the district court erred in granting summary
judgment in favor of JISD. We address Ross’s state-law discrimination
claims and then her federal-law due process claim.
A
Ross brought her race, sex, and age discrimination claims against
JISD under the TCHRA, which prohibits employment discrimination
based on “race, color, disability, religion, sex, national origin, or age.” 7 The
Supreme Court of Texas has instructed Texas courts to consult judicial
interpretations of Title VII and follow the approach of the United States
Supreme Court in interpreting Title VII when reviewing TCHRA claims.8
That means a plaintiff can prove discriminatory intent with direct evidence

3

The district court did not address JISD’s alternative motion for a plea to the
jurisdiction for the TCHRA claims.
4

Moss v. BMC Software, Inc., 610 F.3d 917, 922 (5th Cir. 2010).

5

Fed. R. Civ. P. 56(a).

6

Dillard v. City of Austin, 837 F.3d 557, 561 (5th Cir. 2016).

7

Tex. Lab. Code § 21.051.

8

Mission Consol. Indep. Sch. Dist. v. Garcia, 372 S.W.3d 629, 633–34 (Tex. 2012).

5

Case: 20-50250

Document: 00515804420

Page: 6

Date Filed: 04/01/2021

No. 20-50250

of what the defendant did or said or with circumstantial evidence under the
McDonnell Douglas burden-shifting framework. 9 Under McDonnell Douglas, a
plaintiff has the initial burden of establishing a prima facie case of
discrimination. 10 If she does so, the burden then shifts to the defendant “to
articulate some legitimate, nondiscriminatory reason” for its action. 11 If the
defendant can provide a reason, then the burden shifts back to the plaintiff to
prove that the reason is pretextual. 12
To establish a prima facie case of discrimination under the TCHRA,
the plaintiff must establish that “she (1) was a member of the protected
class . . . , (2) was qualified for the position at issue, (3) suffered a final,
adverse employment action, and (4) was either (a) replaced by someone
[outside the protected class] or (b) otherwise treated less favorably than
others who were similarly situated but outside the protected class.” 13
Because the parties do not dispute the first three elements, we only address
the last element of Ross’s race, sex, and age discrimination claims.
1
We start with Ross’s race discrimination claim. For the first time on
appeal, Ross argues that she established her prima facie case through direct
evidence. Because Ross did not present this argument to the district court,
we cannot consider it. 14 Thus, to survive summary judgment, Ross has to rely

9

Id. at 634.

10

McDonnell Douglas Corp. v. Green, 411 U.S. 792, 802 (1973).

11

Id.

12

Id. at 804.

13

Tex. Tech. Univ. Health Sci. Ctr.-El Paso v. Flores, 612 S.W.3d 299, 305 (Tex.

2020).
14

See Keelan v. Majesco Software, Inc., 407 F.3d 332, 339 (5th Cir. 2005) (“If a party
fails to assert a legal reason why summary judgment should not be granted, that ground is

6

Case: 20-50250

Document: 00515804420

Page: 7

Date Filed: 04/01/2021

No. 20-50250

on circumstantial evidence under the McDonnell Douglas framework, as she
did below. Only the fourth element of her prima facie claim is disputed, so
Ross must show either that she was replaced by someone outside her
protected class or treated less favorably than similarly situated individuals
who were outside her protected class. Ross fails to show either.
First, Ross claims that she has shown that she was replaced by Loretta
Davidson, who is Caucasian and thus outside Ross’s racial protected class.
But the undisputed facts refute this argument. Debbie Grady, the interim
replacement while Ross was on paid administrative leave, is African
American. And Tracy Valree, who became the principal after the Board
voted not to renew Ross’s employment contract, is also African American.
Ross contends that we should not consider Grady or Valree because they
were temporary replacements; instead, she says that we should consider only
her permanent replacement, Loretta Davidson, who is Caucasian. 15 Ross
provides no evidence that Valree was deemed a temporary replacement by
JISD, that JISD told Valree she was a temporary replacement, or that any
faculty at Metzger viewed Valree as a temporary replacement. Moreover,
Valree served as principal for three years before Davidson became principal.
Because all the evidence indicates that Valree was Ross’s permanent
replacement, the undisputed facts establish that Ross was not replaced by
someone outside her protected racial class.
Second, Ross argues that she has shown that she was treated less
favorably than similarly situated individuals who are outside of her protected

waived and cannot be considered or raised on appeal.” (quoting Keenan v. Tejeda, 290 F.3d
252, 262 (5th Cir. 2002))).
15

See Herbert v. City of Forest Hill, 189 S.W.3d 369, 376 (Tex. App.—Fort Worth
2006) (focusing on the race of the permanent replacement, rather than the race of the
temporary replacements).

7

Case: 20-50250

Document: 00515804420

Page: 8

Date Filed: 04/01/2021

No. 20-50250

class. To succeed on this argument, Ross must proffer a comparator—a
JISD employee whose contract was renewed “under nearly identical
circumstances.” 16 To satisfy this requirement, Ross must show that the
proffered comparator and she: (1) “held the same job or responsibilities”;
(2) “shared the same supervisor or had their employment status determined
by the same person”; (3) “have essentially comparable violation histories”;
and (4) have engaged in “nearly identical” conduct to the conduct that
resulted in Ross’s nonrenewal. 17 Ross proffered eleven individuals as
comparators. Because five of those individuals had substantially different job
responsibilities, they do not qualify as comparators. 18 Of the remaining six,
who were either principals or vice principals at JISD schools, their conduct
included covering up a teacher’s inappropriate contact with a student,
requiring teachers to change students’ grades, “fail[ing] in leadership,” and
violating unspecified JISD policies and practices. Their conduct was not
“nearly identical” to Ross’s

conduct,

which involved

financial

mismanagement, inappropriate fundraising, inappropriate alcohol use, and
misuse of funds and work time. Thus, Ross has failed to provide an adequate
comparator. The undisputed facts show that Ross was not treated differently
than similarly situated individuals outside her protected racial class.
2
We next address Ross’s sex discrimination claim. Because Ross was
replaced by three women (Grady, Valree, and Davidson), the undisputed
facts establish that Ross was not replaced by someone outside her protected

16

Lee v. Kan. City S. Ry. Co., 574 F.3d 253, 260 (5th Cir. 2009) (internal quotation
marks and citation omitted).
17

Id.

18

See Turner v. Kan. City S. Ry. Co., 675 F.3d 887, 893 (5th Cir. 2012).

8

Case: 20-50250

Document: 00515804420

Page: 9

Date Filed: 04/01/2021

No. 20-50250

class. And Ross fails to raise a dispute of fact to show that she was treated less
favorably than other similarly situated individuals because none of the four
men whom Ross proffers qualifies as a comparator for the same reasons as
above.
3
Finally, we address Ross’s age discrimination claim. When the Board
decided not to renew Ross’s contract, Ross was fifty-five and thus protected
under the TCHRA, which applies to employees who are forty or older. 19 To
establish the last, and only disputed, element of her prima facie case for age
discrimination, Ross must show either that she was “replaced by someone
significantly younger” or “treated less favorably than others who were
similarly situated but outside the protected class.” 20 Ross has not shown that
she was treated less favorably because she has failed to proffer any
comparators for this claim. The eleven individuals whom she proposes as
comparators were for her race and gender discrimination claims, not her age
discrimination claim. And Ross does not provide any information about these
individuals’ ages.
Whether Ross has shown that she was replaced by someone
significantly younger is a closer call. Grady, Ross’s interim replacement, and
Valree, Ross’s permanent replacement, were also over forty and thus
members of the protected class: Grady was fifty-seven (two years older than
Ross), and Valree was forty-nine (six years younger than Ross). Even though
Grady and Ross were within the protected age class, Ross can still establish
her prima facie case if Valree is “significantly younger” than her. 21 While

19

See Tex. Lab. Code § 21.101.

20

Flores, 612 S.W.3d at 305.

21

See O’Connor v. Consol. Coin Caterers Corp., 517 U.S. 308, 313 (1996).

9

Case: 20-50250

Document: 00515804420

Page: 10

Date Filed: 04/01/2021

No. 20-50250

most circuits have generally agreed that age ranges above ten years are
significant (and those below are not), our circuit has not established such a
bright-line rule. 22 We have implied that it is “a close question” whether an
age difference of five years is significant. 23
But we need not determine whether the six-year difference between
Ross’s and Valree’s ages is significant for purposes of establishing a prima
facie case because Ross has failed to satisfy the rest of the McDonnell Douglas
framework. Assuming that Ross did establish a prima facie case of age
discrimination, the burden shifted to JISD to rebut the presumption of
discrimination by providing a “legitimate, nondiscriminatory reason” for its
nonrenewal of Ross’s contract. 24 JISD did that when it detailed Ross’s
numerous policy violations and performance issues in its Notice of Proposed
Nonrenewal. Ross argues that JISD provided a “nonspecific laundry [list]”
of allegations, which should not be sufficient to rebut the presumption of
discrimination. But JISD’s list is very specific, including, among other
reasons, Ross’s “engag[ing] in impermissible fund raising activities by
charging students for composition books paid for by the district and for
attending events such as pep rallies and performances,” Ross’s “work[ing]
on an outside film project during her work hours and [] not [being] truthful

22

See Grosjean v. First Energy Corp., 349 F.3d 332, 336–39 (6th Cir. 2003)
(collecting cases).
23

Rachid v. Jack in the Box, Inc., 376 F.3d 305, 313 (5th Cir. 2004).

24

McDonnell Douglas, 411 U.S. at 802.

10

Case: 20-50250

Document: 00515804420

Page: 11

Date Filed: 04/01/2021

No. 20-50250

to district officials about this.” Plus, the only issue that we must consider
with respect to JISD’s reasons is whether they are legitimate, and they are. 25
Because JISD provided legitimate reasons for the nonrenewal of
Ross’s contract, the burden shifted back to Ross to present at least some
evidence that JISD’s stated reasons for terminating her employment were
pretextual. 26 Ross fails to do so. Ross’s brief focuses exclusively on whether
the reasons provided JISD were a pretext for racial discrimination. But she
does not provide a single piece of evidence to indicate that JISD’s reasons
were a pretext for age discrimination. Thus, Ross fails to raise a dispute of
material fact to show that JISD’s reasons for not renewing her contract were
a pretext for age discrimination. 27
B
Ross argues that the district court erred in granting summary
judgment on her due process claim because JISD terminated her without a

25

Ross also tries to relitigate JISD’s reasons for not renewing her term contract
because she did not have a full and fair opportunity to litigate the issue of whether she was
fired for being a “black, older woman.” The record refutes this argument: Ross had an
opportunity at her hearing to present evidence. Moreover, Ross is collaterally estopped
from relitigating JISD’s reasons for her nonrenewal. See Kariuki v. Tarango, 709 F.3d 495,
506 (5th Cir. 2013) (listing the four conditions for collateral estoppel to apply); see also
Nairn v. Killeen Indep. Sch. Dist., 366 S.W.3d 229, 243 (Tex. App.—El Paso, 2012, no pet.)
(providing that collateral estoppel applies when an administrative agency acts “in a judicial
capacity and resolves disputed issues of fact properly before it which the parties have had
an adequate opportunity to litigate” (quoting Bryant v. L.H. Moore Canning Co., 509
S.W.2d 432, 434 (Tex. App.—Corpus Christi, 1974))).
26

McDonnell Douglas, 411 U.S. at 804.

27

See Alamo Heights Indep. Sch. Dist. v. Clark, 544 S.W.3d 755, 783 (Tex. 2018).

11

Case: 20-50250

Document: 00515804420

Page: 12

Date Filed: 04/01/2021

No. 20-50250

fair investigation, evidence, and notice of the charges against her and without
abiding by the statutory requirements for the termination of a teacher.
To establish a procedural due process claim under § 1983, Ross must
identify a protected property or liberty interest and then show that JISD’s
actions resulted in a deprivation of that interest. 28 Ross asserts that she has
both a protected property interest and a protected liberty interest, so we
address each in turn.
We look to Texas law to determine whether Ross had a protected
property interest. 29 Under Texas law, Ross has no protected property
interest in the renewal of her term employment contract, and Ross does not
dispute this. 30 Ross instead argues that she has “the right to not be denied
public employment except in a fundamentally fair manner” and that “the
Board failed to consider her most recent evaluation, which was excellent.”
But a unilateral expectation of continued employment is not enough to create
a constitutionally protected property interest. 31
Ross also argues that JISD infringed upon her protected liberty
interest by bringing stigmatizing charges against her. To prevail on her claim,
Ross must show: “(1) that she was discharged; (2) that stigmatizing charges
were made against her in connection with the discharge; (3) that the charges
were false; (4) that she was not provided notice or an opportunity to be heard
prior to her discharge; (5) that the charges were made public; (6) that she

28

Gentilello v. Rege, 627 F.3d 540, 544 (5th Cir. 2010).

29

See Nunez v. Simms, 341 F.3d 385, 387–88 (5th Cir. 2003).

30

Tex. Educ. Code § 21.204(e) (“A teacher does not have a property interest
in a contract beyond its term.”).
31

See Bd. of Regents of State Colls. v. Roth, 408 U.S. 564, 577 (1972) (requiring a
“legitimate claim of entitlement” to establish a protected property interest).

12

Case: 20-50250

Document: 00515804420

Page: 13

Date Filed: 04/01/2021

No. 20-50250

requested a hearing to clear her name; and (7) that [JISD] refused her
request for a hearing.” 32 Ross fails to establish all these elements. For
example, the undisputed evidence shows that Ross was provided notice and
an opportunity to be heard prior to her discharge. The Board sent Ross a
Notice of Proposed Nonrenewal before it voted not to renew her contract,
and that notice provided Ross with a summary of the charges against her and
her right to request a hearing prior to being discharged. And Ross points to
no evidence in the record to contradict that JISD provided sufficient notice.
She has therefore failed to establish that she has a protected liberty interest.
IV
Ross failed to establish a prima facie case for race and sex
discrimination. She also failed to generate a dispute of material fact to show
that JISD’s legitimate reasons for not renewing her contract were a pretext
for age discrimination. And the undisputed evidence demonstrates that Ross
does not have a protected property interest and that JISD did not deprive
her of a protected liberty interest. For these reasons, we AFFIRM summary
judgment in favor of JISD on Ross’s race, sex, and age discrimination claims
under the TCHRA and her procedural due process claim under § 1983.

32

Hughes v. City of Garland, 204 F.3d 223, 226 (5th Cir. 2000).

13

Case: 20-50250

Document: 00515804429

Page: 1

Date Filed: 04/01/2021

United States Court of Appeals
FIFTH CIRCUIT
OFFICE OF THE CLERK
LYLE W. CAYCE
CLERK

TEL. 504-310-7700
600 S. MAESTRI PLACE,
Suite 115
NEW ORLEANS, LA 70130

April 01, 2021
MEMORANDUM TO COUNSEL OR PARTIES LISTED BELOW
Regarding:

Fifth Circuit Statement on Petitions for Rehearing
or Rehearing En Banc

No. 20-50250

Ross v. Judson Indep Sch Dist
USDC No. 5:18-CV-269

Enclosed is a copy of the court’s decision. The court has entered
judgment under Fed. R. App. P. 36. (However, the opinion may yet
contain typographical or printing errors which are subject to
correction.)
Fed. R. App. P. 39 through 41, and 5th Cir. R. 35, 39, and 41
govern costs, rehearings, and mandates.
5th Cir. R. 35 and 40
require you to attach to your petition for panel rehearing or
rehearing en banc an unmarked copy of the court’s opinion or order.
Please read carefully the Internal Operating Procedures (IOP’s)
following Fed. R. App. P. 40 and 5th Cir. R. 35 for a discussion
of when a rehearing may be appropriate, the legal standards applied
and sanctions which may be imposed if you make a nonmeritorious
petition for rehearing en banc.
Direct Criminal Appeals. 5th Cir. R. 41 provides that a motion
for a stay of mandate under Fed. R. App. P. 41 will not be granted
simply upon request. The petition must set forth good cause for
a stay or clearly demonstrate that a substantial question will be
presented to the Supreme Court. Otherwise, this court may deny
the motion and issue the mandate immediately.
Pro Se Cases.
If you were unsuccessful in the district court
and/or on appeal, and are considering filing a petition for
certiorari in the United States Supreme Court, you do not need to
file a motion for stay of mandate under Fed. R. App. P. 41. The
issuance of the mandate does not affect the time, or your right,
to file with the Supreme Court.
Court Appointed Counsel. Court appointed counsel is responsible
for filing petition(s) for rehearing(s) (panel and/or en banc) and
writ(s) of certiorari to the U.S. Supreme Court, unless relieved
of your obligation by court order.
If it is your intention to
file a motion to withdraw as counsel, you should notify your client
promptly, and advise them of the time limits for filing for
rehearing and certiorari.
Additionally, you MUST confirm that
this information was given to your client, within the body of your
motion to withdraw as counsel.

Case: 20-50250

Document: 00515804429

Page: 2

Date Filed: 04/01/2021

The judgment entered provides that plaintiff-appellant pay to
defendant-appellee the costs on appeal. A bill of cost form is
available on the court’s website www.ca5.uscourts.gov.

Sincerely,
LYLE W. CAYCE, Clerk

By: _______________________
Nancy F. Dolly, Deputy Clerk
Enclosure(s)
Ms. Katie Elizabeth Payne
Mr. Laurence Wade Watts
Mr. Donald Craig Wood

